Review of the SEC’s Practices for Sanitizing
Digital Information System Media




                                        May 30, 2014
                                       Report No. 521
                                          UNITED STATES
                           SECURITIES AND EXCHANGE COMMISSION
                                      WASHINGTON, D.C. 20549
    OFFICE OF
INSPECTOR GENERAL




                                     MEMORANDUM

                                         May 30, 2014

To:           Thomas A. Bayer, Chief Information Officer, Office of Information Technology

From:         Carl W. Hoecker, Inspector General, Office of Inspector General

Subject:      Review of the SEC’s Practices for Sanitizing Digital Information System Media,
              Report No. 521

Attached is the Office of Inspector General’s (OIG) final report detailing the results of our
review of the U.S. Securities and Exchange Commission’s (SEC) practices for sanitizing digital
information system media (media). The report contains eight recommendations for corrective
action that, if fully implemented, should strengthen the SEC’s media sanitization controls.

On April 30, 2014, we provided you with a draft of our report for your review and comment. In
your May 21, 2014, response, you concurred with all of our recommendations. We have
included your response as Appendix IV in the final report.

Within the next 45 days, please provide the OIG with a written corrective action plan that
addresses the recommendations. The corrective action plan should include information such
as the responsible official/point of contact, timeframe for completing required actions, and
milestones identifying how your office will address the recommendations.

We appreciate the courtesies and cooperation extended to us during the review. If you have
questions, please contact me or Rebecca L. Sharek, Deputy Inspector General for Audits,
Evaluations, and Special Projects.

Attachment


cc:     Mary Jo White, Chair
        Erica Y. Williams, Deputy Chief of Staff, Office of the Chair
        Luis A. Aguilar, Commissioner
        Paul Gumagay, Counsel, Office of Commissioner Aguilar
        Daniel M. Gallagher, Commissioner
        Benjamin Brown, Counsel, Office of Commissioner Gallagher
        Kara M. Stein, Commissioner
        Tyler Gellasch, Counsel, Office of Commissioner Stein
        Michael S. Piwowar, Commissioner
        Jaime Klima, Counsel, Office of Commissioner Piwowar
Jeffery Heslop, Chief Operating Officer
Anne K. Small, General Counsel
Timothy Henseler, Director, Office of Legislative and Intergovernmental Affairs
John J. Nester, Director, Public Affairs
Pamela Dyson, Deputy Director, Office of Information Technology
Todd Scharf, Associate Director, Chief Information Security Officer
Barry Walters, Director, Office of Support Operations/Chief FOIA Officer
Olivier Girod, Chief, Office of Building Operations
Vance Cathell, Director, Office of Acquisitions
David Glockner, Regional Director, Chicago Regional Office
Barry Isenman, Assistant Director, Chicago Regional Office
Andrew Calamari, Regional Director, New York Regional Office
Robert Keyes, Associate Regional Director, New York Regional Office
Sharon Binger, Regional Director, Philadelphia Regional Office
Edward Fallacro, Chief of Regional Office Operations, Philadelphia Regional Office
Darlene L. Pryor, Management and Program Analyst, Office of the Chief
   Operating Officer
U.S. SECURITIES AND EXCHANGE COMMISSION                                                 OFFICE OF INSPECTOR GENERAL



Executive Summary                                  Review of the SEC’s Practices for Sanitizing
                                                   Digital Information System Media
                                                   Report No. 521
                                                   May 30, 2014

Why We Did This Review                       What We Found
The U.S. Securities and Exchange             The SEC Office of Information Technology (OIT) sanitizes surplus and
Commission (SEC) generates and               obsolete media by destroying it, which minimizes the risk of unauthorized
collects commercially valuable, market-      disclosure of information. However, we visited the SEC’s Washington,
sensitive, proprietary, and other            D.C., headquarters and three of the agency’s regional offices
nonpublic information. To safeguard          (Philadelphia, New York, and Chicago) and identified needed
against unauthorized disclosure of this      improvements in the agency’s sanitization and disposal practices.
information, the SEC requires that           Specifically, we found that the SEC did not always
digital information system media                 store media awaiting sanitization, particularly surplus hard drives, in
(media), including computer hard                  secure containers or cabinets to prevent pilferage;
drives, compact discs, digital video
discs, and data tapes used to process            encrypt laptop computer hard drives, although encryption is required
and store information, be sanitized               and unencrypted laptop computer hard drives awaiting sanitization
before disposal. Effective sanitization           were found to contain large amounts of nonpublic information,
                                                  including personally identifiable information;
minimizes the risk of unauthorized
release of information that is potentially       inventory or track hard drives during the sanitization process; and
damaging to the agency, its employees
and contractors, and those entities that         sanitize failed disks that were part of the agency’s data center
                                                  redundant storage arrays before returning such disks to a vendor.
the SEC regulates. To determine
whether the SEC effectively sanitizes        We also determined that SEC employees did not always witness the third-
surplus media before its disposal, the       party destruction of media or obtain accurate or complete certificates of
Office of Inspector General contracted       destruction.
the services of Networking Institute of      After issuing to management a discussion draft of our report highlighting
Technology, Inc. (referred to as “we” in     these results, we learned that the OIT, on April 7, 2014, rescinded its
this report) to evaluate the agency’s        Media Destruction Procedure and revised its SEC OIT Security Policy
media sanitization practices.                Framework and accompanying handbook. Those documents established
                                             many of the media sanitization and disposal requirements that agency
What We Recommended                          personnel were not consistently following.
To provide reasonable assurance that         We communicated to the OIT our concern that those changes eliminated
the SEC’s obsolete and surplus media         previously established controls over media sanitization and disposal rather
containing sensitive information are         than ensure that such controls were working effectively. Subsequently, the
properly safeguarded and sanitized           OIT agreed to reestablish some requirements to address the weaknesses
before disposal, we made eight               we observed. Those weaknesses existed because of a lack of clear lines
recommendations for corrective action.       of authority and roles and responsibilities for media sanitization. Also, the
The recommendations address surplus          OIT did not adequately oversee agencywide sanitization and disposition
media storage, laptop encryption,            processes, including those of the regional offices. In addition, responsible
inventorying and tracking of surplus         personnel did not consistently follow or were unaware of applicable
hard drives, sanitization of failed hard     policies and procedures. Finally, there were no enforcement or
disks used in disk arrays, certificates of   compliance controls in place to detect and prevent the weaknesses we
destruction, media sanitization policies     observed. According to management’s response to the draft of our report,
and procedures, and implementation of        the OIT is reviewing its Media Destruction Procedure and intends to
verification activities. Management          replace it with multiple procedures addressing media sanitization.
concurred with the recommendations,          During the course of our review, we also found on the SEC’s
which will be closed upon completion         enterprisewide network drives large amounts of sensitive, nonpublic
and verification of corrective action.       information that was available to all employees and contractors with
Because this report contains sensitive       access to the network. Upon notification, management restricted access
information about the SEC’s                  to the drives, pending further review by the OIT.
information security program, we are
not releasing it publicly.                   For additional information, contact the Office of Inspector General at
                                             (202) 551-6061 or www.sec.gov/about/offices/inspector_general.shtml.

                                                             i
U.S. SECURITIES AND EXCHANGE COMMISSION                        OFFICE OF INSPECTOR GENERAL


To Report Fraud, Waste, or Abuse, Please Contact:
  Web:               www.reportlineweb.com/sec_oig

  Email:             oig@sec.gov

  Telephone:         (877) 442-0854

  Fax:               (202) 772-9265

  Address:           U.S. Securities and Exchange Commission
                     Office of Inspector General
                     100 F Street, N.E.
                     Washington, DC 20549-2736


Comments and Suggestions
  If you wish to comment on the quality or usefulness of this report or suggest ideas for
  future audits, please contact Rebecca Sharek, Deputy Inspector General for Audits,
  Evaluations, and Special Projects at sharekr@sec.gov or call (202) 551-6083.
  Comments, suggestions, and requests can also be mailed to the attention of the
  Deputy Inspector General for Audits, Evaluations, and Special Projects at the
  address listed above.




REPORT NO. 521                                                                MAY 30, 2014
